THE UNITED STATES SUPREME COURT
LISA GINDI

Petitioner/Moving Party

- againstNEW YORK CITY DEPARTMENT OF
EDUCATION

Defendants/Appellees
Defendants

THOMAS BENNETT, ET AL

John Guyette, Zachary Shapiro New York City
Law Department-Counsel
Respondents

Oriana Vigliotti- NYSUT counsel.
WRIT OF CERTIORARI
Lisa Gindi
Pro Se
75-25 153 Street
Flushing, NY 11367

February 20, 2020

John Guyette,
Zachary Shapiro
NYC Law Department
100 Church Street
New York NY 10007
Oriana Vigliotti
NYSUT
52 Broadway, 9th Floor
New York, NY. 10004

I . Question: Whether a failure to recognize the current
IEP which allow the coddling of the very dangerous kids
who are a threat to teachers and other students?

II Question: Is there a need for the times an employee
files a new or amended charge alleging retaliation with
the Equal Employment Opportunity Commission
(EEOC) before filing suit under Title VII's antiretaliation provision if the employer's act of retaliation is
a result of the employee's filing of an earlier charge with
the EEOC? And, whether Federal district court filings
were an oversight, more specifically, regarding
Petitioner's 2013, 2014/2015, and 2016 EEOC Right To
Sue letters by the district and appeals court?

III. Question: Whether new jurisdiction regarding
FEMLA was an oversight, that could have affected
employees' court cases who were victims of domestic
violence? And, was there an oversight in the amended law
regarding stalking that could have, more specifically,
affected the Petitioner's case?

2

2

IV Question: Whether harm will be caused by allowing
retaliation/firing of an employee who reported to the boss
to be a victim of family violence by an illegal immigrant
who received voluntary deportation, as, in essence, could
come back to America, one day, to hurt that fired
employee, ex-spouse, again?

Question: Which court has jurisdiction to amend
present laws to "try" employers for criminal charges and
receive jail time, if guilty, instead of civil charges who
assault staff and employees physically, mentally and
sexually, etc., instead of making it a "harassment"
charge that is civil in nature? Especially, if the
employee did everything in his/her power to address
issues of work-stress by seeking and paying for weekly,
professional, outside help?

Question: Whether harm was caused by both
courts concerning not finding merit in a case that
3

3

reported a student had in his possession a second category
weapon?

Question: Which court is designated to hear cases
filed that question a need to dismantle a failed Department
of Education and/or a failed teachers' union that neither
has aided school report cards, nor school safety, nor have
they granted employees their constitutional rights?

Question: Which court amends laws for disabled
employees to add Premenstrual Dysphoric Disorder
(PMDD ) to the list for female employees workers that is
often accompanied by severe pain, mood issues, anxiety
and depression, so these employees diagnosed with such
could be granted two, consecutive sick days without being
docked pay and could be refrained from being deemed
"unfit" for duty and/or forcing them to get a fitness test?
4

4

List of Parties
The New York City Department of Education and the
United Federation of Teachers and Mr. Thomas Bennett,
Dr. Ann Garner, Hubert Guscott, Cecilia Accetura, Ms. Teri
Amass, Janice Carter, John Cayton, Catherine Morrissey,
Ms. Teri Di'Ambrosio, Gayle Donowitz, Mario Ford, Elaine
Jacobs, Reesa Levy, Grace Lewis, Michael Mulgrew, John
O'Mahoney, Geraldine Pomponio, Howard Schoor, Marc
Sklar, Maritza Soto, Dion Thomas, and Mr. Charles Turner.

Table Of Contents

Cases

Page(s)

Questions

2-4

List of Parties

3-4

Table of Contents

5-7

Table of Authorities

7-9

5

5

Opinion

9

Jurisdiction

9

The Case Statement

11

Summary

12

Order

12-18

32

Facts of Case

Reasons I should win my
48

case

Conclusion

51

41

Closing

Table of Authorities

Case and Article online /Periodical

Page

6

6

Coppedge v. United States, 369 U.S.
438, 444-45 (1962)2019, Thomson
Reuters. FIND LAW

10

Fed. R. Civ. P. 60(c)(1). The Basis
for a Criminal Appeal.

13

Fowikes v. iron workers Local 40,
790 F.3d 378, 385-86 (2d Cir. 2015)

14

Implementing the ADA
Amendments Act of 2008.

20

Faragher-Ellerth defense will
be limited

22

Amended laws for FEMLA
("PFLBL"), passed last year and effective
January 1, 2018,

23

7

7

Weapons at School: Student Rights
and Disciplinary Consequences
August 2018.

17

Victims Receive Services: 5.1040,

23

Security and Financial Empowerment (SAFE) Act
CORPORATE COUNSEL LITIGATION AND DISPUTES
29 and 35
"Lilly Ledbetter Fair Pay Act of 2009".
33
SEC. 2. NOTE: 42 USC 2000e-5 note.

35

28 U.S.C. § 1915(a)(3).

7

Under Act 26 (24 P.S. § 13-1317.2)
Zero Tolerance Law

31

Safe Schools Against Violence
in Education Act (SAVE)

20

Law, SECTION 41-7-20 right to Work.

55

SECTION 215 OF THE NEW YORK
STATE LABOR LAW

24
8

8

U.S. 618 (2007)

33

Local Rule 40(a).

33
Opinions

The opinions and decisions are publicly published and are
included in the appendix of this petition.
Jurisdiction
Federal District court: Case 15cv6475 Gindi v.Bennett filed
9/27/18. Plaintiff was ordered to terminate all parties
without the exception of The NYC Department of Education.
The decision says, "plaintiff does not allege any facts of
discrimination, just that she suffered harms experienced on
the job. Furthermore, even if Gindi were to file an
amendment more clearly articulating the facts underlying
her allegations, her claims would still be time-barred.
Therefore, granting leave to amend would be futile in this
case. Defendant's motion to dismiss was granted (Doc. No.
44) by the district court on September 26, 2018 and certifies
pursuant to 28 U.S.C. § 1915(a)(3) that any appeal from this
order would not be taken in good faith and therefore in forma
pauperis status is

9

9

denied for purpose of an appeal. See Coppedge v. United
States, 369 U.S. 438, 444-45 (1962). The Clerk of Court is
directed to enter judgement pursuant to this Order, and to
close the case".
Appeals Court Second Circuit Case #18-3057 Gindi v.
Bennett

Mandate

issued

on

10/02/19.

Petitioner/Appellant/Movant was denied a petition for
rehearing and, en bank, denied reversing the Federal
district court's summary order in an employment
discrimination action under the Americans with Disabilities
Act. In its opinion, Circuit Judges M. Walker. Raymond J.
Lohlier. Jr., and Susan L. Carney, wrote that in the panel's
opinion, "the plaintiff must show that she,diligently pursued
her rights and that extraordinary circumstances prevented
a timely filing". We review de novo the dismissal of a
complaint pursuant to Rule 12(b)(6)

"Plaintiffs

asserting claims under Title VII, the ADEA, or the ADA
must first file a complaint with

10

10

the Equal Employment Opportunity Commission
(EEOC) or an equivalent state agency within 300 days of
the allegedly discriminatory action. See 29 U.S.C. §
626(d)(1); 42 U.S.C. § 2000e-5(e)(1); 42 14 U.S.C. § 12117(a).
Although the filing deadline is subject to equitable tolling,
Gindi attached to her second amended complaint an
EEOC and New York State Division of Human Rights
(NYSDHR) charge dated December 2, 2015. The District
Court correctly concluded that Gindi's claims of
discrimination against the DOE arising out of conduct that
occurred before February 5, 2015 (300 days before the date
of her complaint) were untimely. Here, Gindi alleged that
the DOE's discriminatory actions occurred during her
employment as a teacher, which terminated in June 2013,
well outside

11

11

The 300-day period. See Flaherty v. Metromail Corp., 235
F.3d 133, 137 (2d Cir. 2000) ("[T]he time for filing a
claim with the EEOC [based on discharge] starts running
on the date when the employee receives a definite notice
of termination . . . ." (quotation marks omitted)). Urging a
contrary conclusion, Gindi argues for the first time on
appeal that she attempted to communicate with the EEOC
as early as 2009, but that she was prevented from filing a
charge for approximately six months. In support,
Gindi provides us with a letter she submitted to the EOC
dated September 16, 2015, which was not part of the
district court record. Arguments presented for the first
time on appeal are generally forfeited, even in cases
involving pro se litigants. See Zerilli-Edelglass, 333 F.3d
at 80. But even if Gindi had properly preserved the
argument, we would still agree with the District
12

12

Court's conclusion that her complaint was untimely
because treating the September 2015 letter as an EEOC
complaint would extend the 300-day period only to
November 2014, well after June 2013. In addition, Gindi's
attempts to contact the EEOC

fall short of the

extraordinary circumstances necessary to warrant tolling
of the time within which to file an actual EEOC complaint.
Gindi also argues that the District Court denied her a fair
hearing. We disagree. The District Court denied Gindi's
motion for a pre-motion conference as unnecessary, and
Gindi has not explained why a conference was required.
Relying on the Federal Rules of Civil Procedure,
moreover, Gindi argues that the District Court violated
Rule 60 by failing to decide the DOE's motion to
dismiss within one year. This argument rests
13

13

on a misunderstanding of Rule 60, which limits the time
litigants have to seek relief from a prior judgment, not the
time a district court has to decide a motion to dismiss. See
Fed. R. Civ. P. 60(c)(1). Finally, we reject Gindi's claim of
judicial bias, which rests solely on the District Court's
adverse decisions. See Chen v. Chen Qualified Settlement
Fund, 552 F.3d 218, 227 (2d Cir. 2009) (stating that adverse
rulings, without more, do not provide a basis for a bias
claim). We have considered Gindi's remaining arguments
and conclude that they are without merit is AFFIRMED.
For the foregoing reasons, the judgment of the District
Court The decision goes on to say the I, Lisa Gindi,
petitioner/ Appellant/Plaintiff, "did not include a letter
written to the EEOC in 2015 and that I claimed I did not get
a fair hearing". C[T]he time for filing a claim with the EEOC
[based on discharge] starts running on the date when the
employee receives a definite notice of termination . . . ."
The Case Statement
Petitioner asks for Writ of Certiorari and to overturn her
14

14

decision against her appeal in an Employment
Discrimination, Civil and Human Rights, Violation of Title
VII, The ADEA, and the ADA, Discrimination of Victim of
Domestic Violence, Retaliation and Wrongful Termination
violation. She never received a letter of termination. She
feels the courts made an oversight with all of the exhibits
and proof in terms of government reports and applications
of her accident at work, filing with Human Rights and SCI,
OSHA, Doctors, The EEOC, OCR, The Comptroller's office,
The Attorney General, PERB, etc., could have been an
oversight, especially, because they were reported by the
appeals court to not have been forwarded over to the clerk.
I, Lisa Gindi, have emotionally abused for almost two
decades by various bosses and personnel. This was
regardless of counseling I paid out of pocket for in case it
was my own stress that needed managing, that indeed
destroyed my adult life, chances of building my own family
and having babies, and ended my career. I could not quit my
job because I wanted to continue to be independent.
Summary and Order
15

15

Relying on the Federal Rules of Civil Procedure, moreover,
I argued that the District Court violated Rule 60 by failing
to decide the DOE's motion to dismiss within one year.
This argument, the Panel wrote, rests on a
misunderstanding of Rule 60, which limits the time
litigants have to seek relief from a prior judgment, not the
time a district court has to decide a motion to dismiss. See
Fed. R. Civ. P. 60(c)(1). This does apply to me, actually,
now, thinking back, since I claimed in federal court I
wanted to collect relief from a prior judgement and that
was from Supreme Court who would not allow me to appeal
that I had really won since the defendants would not show
to court and that I was reinstated without any written
rules about my medical issue, meaning the doctor at the
DOE said I am fit to work as is. I never received back pay.
I was forced to teach as a substitute in a school
I had worked in for over about a decade. They would not pay
me, for the teaching reinstated, as such, until I went to
16

16

"Central", begging.
The District Court's dismissed my claims against
other defendants as well as the District Court's holding that
my "claims against the DOE did not constitute a continuing
violation. Also, that they disagree when I claimed I was not
denied a fair hearing due to these factors of timeliness and
explaining why I requested a pre-conference as well as 'other
arguments' they said I raised. "
In 2016, the Justice in my case 15cv6475, in Eastern
District Federal Court (of Kings County) denied my motions
because of when I filed with the EEOC, but states "however,
the failure to file a timely complaint with the EEOC is not
necessarily fatal. A plaintiff can overcome this deficiency by
showing that she is entitled to equitable tolling". See Fowlkes
v. iron workers Local 40, 790 F.3d 378, 385-86 (2d Cir. 2015). I
was in Kings County, Federal
17

17

District court and Court of Appeals, totaling 11 years. This
is with many government agencies, I went to in person and
wrote to who investigated my case. I simultaneously sued,
and, exhausted every administrative remedy, including got
reinstated at one point.

Appellant motions/petitions the court to see
and consider oversight of the decision that is:
a factual or "plain error". My 2013 , 2015 and 2016 EEOC
papers were not transferred from federal to appeals court to
be used as evidence my case was timely.
could be two court decisions not in alignment with one
another, and/or the federal court said I did not file timely
based on the evidence I submitted in my EEOC letters of
2013, 2015, 2016, but the Court of Appeals said my case was
untimely because my EEOC papers were not even
submitted. This shows two courts not in alignment with one
another because my EEOC evidence was submitted to
federal court and I asked via letter and via application the
Court of appeals required me to fill out upon requesting an
18

18

oral argument for these EEOC exhibits to be transferred as
my "record" from the federal courthouse to the court of
appeals courthouse.
The Federal court ordered me to omit the persons
listed, on my case, and to write Gindi v. Bennett, et al .
Gindi v. The NYC Dept of Ed and never mentioned I have to
omit all the persons that Federal justices had me omit. Now,
on this petition, I have listed all of them with the DOE and
they are 25 names, with Bennett and the UFT. The lower
courts were not on "the same page" with this claim I made
that a person hurt my hand in an angry handshake. Federal
Court demanded I omit his photo and Appeals court never
made any mention to omit his photo. So, even though
appeals court sided
against me, would that mean not being forced to strike his
photo, that I have a case against him? At my three minute
argument, the panel showed concern that I have the
disability of PTSD "kind-of' by telling me I seem upset and
that we will consider your case, soon
19

19

as we have read it", whereas, the Federal district court did
not consider I had the disability and was more strict, not
allowing me to have any in-court argument, not to meet the
justices, never being allowed to do anything, but file papers
in the pro se, clerk's office (for five years ), nor did they even
grant me a pre-conference.

Under the ADA and its

amendments, a person has a disability if it substantially
limits a major life activity. I told my boss, that I suffer from
a reading disability. I was going through stress in 2002 and
2010 from losing an engagement and wedding plans and
years later, going through a divorce. My bosses knew this
and about the stress and made me teach English literature,
regardless in the more recent position. I was excessed to a
different school during my engagement break up years back
from a previous man. With the right of return, I was forced
to read aloud during the English regents and harassed and
abused by paras in front of the children. My boss came in
and criticized me, too. She
20

20

said, 'That's how you read? Read with emphasis to them. I
thought she wanted me to imply the multiple-choice answer
since she was involved in regents grade "scrubbing" in a
former job she had. I refused to hint the answers to kids in
the way I was told to read with emphasis. I was, also,
refusing to pass failing teens that my other boss told me to
do. I was singled out on a teachers' workshop day by the
head principal in front of all my colleagues and she forced
me to follow a pen by eye she had and to read line by line.
The school made me teach English for years with other
subjects I was not licensed for. The Federal Court knew I
had a reading disability and they still made me write and
write the motions and case with exhibits, whereas, the
Appeals court let me speak without writing claims on the
day of the Oral argument.
I was not a highly skilled English teacher and should
never have had to teach that, especially on a regents-level.
Teaching Math was my decision and I rose to the occasion,
21

21

willingly, with a passion for math. I feel the federal
courthouse clerks acted like there was some merit to my
case because they served it with US Marshals and filed it in
forma pauperis, but the justices, in the end, did not side with
me. I had no hearing at all.
I felt the court of appeals clerks did not have any
opinion of their own and since did not have certain data/files
in their possession made a decision against me. I provided
that copy of the EEOC Right To Sue letter of 2013, 2014/15
and 2016, in Federal Court and, they decided against me,
since a.) They did not have my EEOC papers transferred and
b.) they did not give me my benefit of the doubt of my
extraordinary circumstances spoken of. That, being, I am
disabled, of having a reading disability, of having no
experience of how to even put an appeal brief together (as a
pro-se appellant), and, that I wrote to them I was in the
hospital with second degree burns from a kitchen accident
before the oral argument date, causing me to not do the
appeal perfectly. (Found in Questions/Answers about the
Department of Justice's Final Rule Implementing the ADA
Amendments Act of 2008 published
22

22

August 11. 2016). I gave the panel the RTS copies in my
request for a rehearing but was denied for not reason stated
3.) harm or prejudice to the Plaintiff: The harm caused to
me is that losing the appeal had put me into permanent
PTSD. The school made a lie about me and said I am unfit
which is untrue. I FACE DAILY HARASSMENT BASED
ON A LIE, NOW where I live.
There may have been an oversight in the ruling against
me since new laws are in place. What Does The Legislation
Entail? The legislation is an omnibus bill

. Human Rights

Law (NYSHRL), the General Obligations Law, the Civil
Practice Law and Rules, and the New York
Labor Law. Together, these amendments provide for
significant changes to New York's.... Specifically: These
reforms will impact every employer and business in the
state. Lowering the high bar of having to prove "severe and
pervasive" behavior will make it easier for employees to
bring harassment claims in court, and your use of the
Faragher-Ellerth defense will be limited. The amendments
will eliminate the current standard for sex harassment
claims — as well as harassment and retaliation claims

23

23

alleging misconduct based on any protected
characteristic. (Fisher Phillips United States: New York
Lawmakers Pass Game June 26, 2019 Article by Michael R.
Marra and Melissa Osopoff - Ed. Note: The effective date will be
October 11, 2019.) Similarly, the new law extends last year's
prohibition against contracts that mandate arbitration of
sex harassment claims to claims involving any type of
discrimination. Coupled with punitive damages and
attorneys' fee awards, we expect to see an increase in
workplace harassment lawsuits. (Fisher Phillips
NEWSLETTERS Legal Alert New York Lawmakers Pass GameChanging Reforms to State Discrimination Laws 6-21-19)
To be harassed and physically assaulted, sexually
PMDD, and PTSD. So, how could Federal justices decide I
cannot state a claim of discrimination when the assault is
discrimination on its own? I found amended laws for
FEMLA and for victims of family violence. They are below:
New York Issues Final Paid Family Leave Law Regulations
The New York Paid Family Leave Benefits Law ("PFLBL"),
passed last year and effective January 1, 2018, will provide
eligible employees with a paid, job protected leave of absence,
etc. ( Littler News & Analysis Insight New York Issues Final Paid
24

24

Family Leave Law Regulations Stephen Fuchs and Jill Lowell on
August 9, 2017)

24

Forcing children to learn ONLY in order to take an exam is
failing our children, in my opinion, so I think making laws
to reform the schools would help with kids' stress that adds
to the possibility of bringing a weapon to school. The
top-down, teach-and-test method, in which learning is
motivated by a system of rewards and punishments rather
than by curiosity or by any real desire to know, is well
designed for indoctrination and obedience training but not
much else, etc

I know I offered learning with curiosity

and creative lessons about what kids' love, when I used
creative ideas to
get them doing math. They loved music and fashion, named
brands so I wrote that into the lessons,_ (Is the American
School System Damaging Our Kids? Reader's Digest . Peter Gray
RD.COM ADVICE PARENTING Is the American School System
Damaging Our Kids?)
Under Act 26 (24 P.S. sr 13-1317.2), a student who
brings a weapon to school can face severe punishment. I
learned a student with a weapon at school, at a school event,
or traveling to or from school can be expelled for one year or
25

25

more. The student does not have to use the weapon. It is
enough to carry the weapon, keep it in a locker or book
bag, or hold it for a friend. (Weapons at School: Student Rights
and Disciplinary Consequences August 2018. )
A special education student in possession of a weapon
does not face the same punishment, however, as a
mainstreamed one, especially if its related to his/her
disability. Certain offenses can lead to a student being
moved to an interim alternative educational setting for up
to 45 school days "even if the conduct is determined to be
related to the student's disability". Removing a student for
these offenses does not require parent permission or
agreement, nor does it require any involvement by a hearing
officer or other impartial third party. These offenses are:
Weapons
If a student carries or possesses a weapon:
On the way to/at school
On school premises
At school function
In additional, the provision allows a school to seek to remove
a student for up to 45 school days if the school believes that
26

26

returning the student to the same educational placement is
substantially likely to result in injury to the student or other
students. You see, the school must do this by making a
request to a hearing officer, who, among other
requirements, is not employed by the state education agency
or local school district involved in educating the child; has
specialized knowledge and skills related to IDEA (passed in
1975, Under IDEA, you have a say in decisions the school
makes about your child); and has no
interests that conflict with his objectivity in the hearing
process. I am surprised that the article I read published in
2017 says a child who has inflicted serious bodily injury
upon another person while at school, on school premises, or
at a school function under the jurisdiction of a State
educational agency (SEA) or a local educational agency
(LEA). [[300.530(g)] only gets 45 days discipline. Since, I
was made to teach a different class after a boy put a weapon
in my left eye and he went back into the classroom, in my
opinion, harsher consequences should be in place for kids
with IEP's and more research should be conducted to
determine how well informed school administrators are in
relation to the legal issues surrounding special education
27

27

discipline. Perhaps more days out of school and definitely
moved to a new location. In my opinion, research should be
conducted to determine the effects of short-term suspension,
long-term

suspension,

corporal

punishment,

seclusion/restraint, and other forms of discipline on the
behavior of special education students.
If you ask me, 45 days is not long enough for the other,
innocent victims, or just if another student saw a weapon in
someone's possession to heal from the trauma of seeing that
weapon in their classroom. It is not long enough for the
child with the weapon to learn he/she made a mistake,
either.
Both court houses did not grant me a trial, so I could
not present to the jury the lawsuit and ask if the judges
were aware of the newer, "team teaching" method and
teaching to the exam that is not just having two teachers in
one class, but, it's a major overcrowding of people all in one
classroom. Special needs kids and mainstreamed ones in
one room are mostly under supervised by teachers and
paras/aids, which gives way to violence, especially, a class
over 40 students. My classes never even had a place to
28

28

hang their coats and are not allowed to use hall lockers
because of drugs. Teaching only "to the exam" puts stress
on children that makes them act out. Children can learn
with teachers tapping into their natural curiosity, which is
a more effective way and is fair due to a huge amount of
needs and varying learning styles each child possesses. I
was forced to teach in a closet with no window on the door
for about three years. It was close to my boss's room so she
could stalk me, daily which is what she did. My class had
twenty-one pupils inside and we could not function. A girl
got hurt by a boy and fights broke out often. My female
boss grabbed my buttock to show me that I need to report
kids who are touched. I was in shock that she could not just
tell me, verbally. My back was to the class and I did not
see because I was writing on the board. She attacked me
two more times and left bruises on my body. I think she did
not get punished enough and it should not have been listed
as harassment. It should have been listed as a criminal act
and she should have received jail time.
The procedure for removing disruptive students is, also,
covered under a state law that was championed by the
UFT. Among other provisions, the Safe Schools Against
29

29

Violence in Education Act (SAVE) requires each school to
have a removal procedure and an alternative site (i.e.,
SAVE room) where the child can receive instruction and
other supports and interventions. You have the right to file
an expedited appeal to the chancellor if you have followed
the procedure and your principal refuses to remove a
disruptive student from your class or returns the student
sooner than what you agreed to. No, I don't think this
child deserves to appeal. I do not agree.
I think the money funded for Special Needs children does
not always go to them because I had a few students who
needed scribes that are these mechanical devices and the
students did get them. We sure had a nice, new football
field, though. These kids needed to rely on a para to take
notes for them. At about 14 year old age to have to be
accompanied by an adult to every class could bring the child
a lot of depression mixed with anger. This could lead to
bullying and violence in the school, too. I did a double
special ed program because I took my differential before my
masters and was not able to take the "basket weaving"
classes. I was highly educated about the disabilities and
30

30

the needs of these kids. I know what physically challenged
teens are entitled to on their IEP. I would like an
investigation of the school I worked for because I only knew
a few fraudulent things, so I am curious to know how many
more there are.
I noticed myself and another teacher who was fired
were being told to sign as district "reps" on IEP's.. Isn't that
fraud?
In some cases, it may be appropriate to do a reevaluation and/or a change in student's placement. For
children with disabilities who exhibit dangerous behavior
My student returned to class after bringing a weapon in. The
special rules did not apply here to protect others.
(Weapons

Disciplinary Consequences August

2018) Everyday Objects are NOT
Weapons Under Act 26 (24 P.S. § 13-1317.2), a student who
brings a weapon to school can face severe punishment. A
student with a weapon at school, at a school event, or
traveling to or from school can be expelled for one year or
31

31

more. The student does not have to use the weapon. It is
enough to carry the weapon...(Education Law Fact Sheet cc:
Cheryl Kleiman, Education Law Center, ckleiman@elc-pa.org)
I feel this law is too lenient especially when I read this, The
Superintendent Safety Valve Act 26 is a "zero tolerance"
law. This means that the law requires harsh punishment
for students who violate it. But, there is one exception. On a
case-by-case basis, the school district superintendent can
recommend less severe punishment. For example, the
superintendent can suggest that a student be expelled for
less than a year, not be expelled at all, or face some other
form of school discipline that is less serious than an
expulsion

such as community service or shorter length

of exclusion from school. OMG, not punished at all...what?
THE LAWS SHOULD HAVE NO EXCEPTIONS TO THE
TIME POLICY, IN MY OPINION. AND, DOING
COMMUNITY SERVICE OUTSIDE ON A SUNNY DAY AS
A DISCIPLINE PROCEDURE, INSTEAD OF SITTING IN
CLASSES, CLASSES THAT FORCE YOU TO BE IN A
SEAT AND NOT GET UP TO EVEN STRETCH YOUR
32

32

LEGS, LEARNING TO THE AND/OR TAKING EXAMS, IS
NOT A PUNISHMENT FOR KIDS. THAT'S FREEDOM
TO THEM.
CRIME VICTIMS DOMESTIC VIOLENCE SEXUAL
VIOLENCE PUBLIC PROTECTION Ensuring Victims
Receive Services: S.1040, will ensure that victims of
domestic violence can take time away from the workplace to
obtain services, counseling or to attend court proceedings.
And, Enforcing Orders of Protection Enforcing Orders of
Protection: S.1868, encourages the vigorous enforcement of
orders of protection by eliminating the limited liability rules
that prevent victims of domestic violence from recovering all
of the civil damages owed to them. (Victims of domestic
violence/ sex crimes May 14, 2019 issue: Crime victims domestic
violence sexual,etc.)
If I married AN IMMIGRANT WHO COMMITTED
MARRIAGE FRAUD WITHOUT MY KNOWING HE
ONLY WANTED A GREEN CARD, got deported, which
court helps me collect money for damages? Which court
has jurisdiction to assist me with being a victim of
immigration violence? Which court could have given me
an immediate annulment as I begged my attorney and he
33

33

refused to do it as well as the divorce judge would not in
Kings Count Supreme Court. They, in part, caused me to
lose my job. They caused me to need others, financially to
help me who were dangerous. I was scared. I was treated
like I was living in a third world country with no rights as
a woman.
SECTION 215 OF THE NEW YORK STATE LABOR LAW
Makes it unlawful for employer, or anyone on behalf of
employer, to discharge, penalize, or in any manner
discriminate or retaliate against an employee.
In 2013, a bill was introduced in the Texas House of
Representatives that would have allowed crime victims and
parents/ guardians of crime victims the right to take time
off from work to attend court proceedings related to the
crime. However, this bill died in committee. On the federal
level, the Security and Financial Empowerment (SAFE) Act
has been repeatedly introduced by Congresswoman Lucille
Royball-Allard (D-Cal), but has failed to pass. The SAFE
Act would have provided certain protections for survivors of
domestic violence and sexual assault such as:
34

34

up to 30 days off from work during any 12-month period
to receive medical attention, seek legal
assistance/get help with safety planning;
protection from termination because harassed
Retaliaton and/or being labeled unfit when female
employees have PMDD, not made unfit
Paid and unpaid menstrual leave policies have become a
hot button topic around the globe, with many companies
giving women paid time off on their periods in recent years.
Several countries have also instituted paid period leave
policies, reportedly with varying levels of success. Japan
has had a nationwide paid menstrual leave plan in place
since 1947, and Taiwan, South Korea, Indonesia, and parts
of China have created similar policies for women as well.
(Found in Arielle Tschinkel December 15, 2017).
Statement of FactsBackground

I, Lisa Gindi, was a seasoned teacher, with no disciplinary
charges, had good attendance for almost two decades, with
ten years at Sheepshead Bay High School with satisfactory
ratings, and a total of 20 years with satisfactory ratings,
Taught regents trigonometry and many other various
35

35

subjects, including English 6. I was a team player, and,
learned the Math, loved it, but kept being forced to teach
much harder types of Math to the older students. This went
on for years, combined with team teaching Science and
English and even social studies with higher levels to older
students in other rooms across the building, along with
having more students per class in my self-contained classes
and more IEPs to do per month than other teachers.
I had a fashion marketing, undergrad degree where I had
not studied math. I had a restraining order I had shown my
female boss against my husband and another family
member who abused me. My ex-husband was looking only
to get a green card and lied to me about his intentions to be
my husband. My boss was told about the restraining order
and she even drew up and signed a letter to keep my
husband out of the building. Also, my ex-husband's
immigration attorney was calling me multiple times in my
classroom during teaching time. I was afraid my boss would
hit me, again, so did not want to enter her office for a
conference about a "u" rating she had given me. I was not
concerned about the "U" because I knew it was odd and
36

36

never had one and I was hard working enough to change it
to satisfactory. I was only afraid because all the kids said
she was swearing, screaming in the hallways, and angry
about the school report card. I, also, was afraid to go into
the head principal's office, thinking she would hurt me, too.
She had a temper, also.
I was forced to team teach with the Math chairman, who
was, also, an Assistant Principal, who monitored me and
observed everything I did. He turned many of the students
against me. At Sheepshead Bay High School, I complained
to UFT and my school, head principal, SCI and Human
Rights) that my boss in the special education department
had been physically, and emotionally abusive towards me.
She would call me into her office, daily and scare me that
she would send me to a hospital. I did not understand
because I was getting satisfactory ratings and the kids, on
average, liked me. I was called into the head principal's
office and told I should show them my artwork and that
they want to make me an art teacher. I was asked to
change the report and only did it a little, but left the part
about the dangerous hallways. This, according
37

37

to what I read, is bribery and that's illegal. Then, I was
fired when I refused to change my report about my direct
boss. I was handed a negative letter to my file at the
meeting with my boss and the Math Chairman, but it was
the chairman who handed me the letter. After searching
through my grade book, I could not find extra points to
pass almost two dozen failing , "no-show" students.
Then, I was told to go for a fitness test at The New York
City Dept Of Education on Court Street, Brooklyn, instead
of teaching. I tried to come back to work, but, was not
allowed into the classroom. I was thrown in the street the
first time I was fired and the second time, years later,
touched to get me out the door. I was not given a fair
hearing why I could not teach. I retained an attorney and
went to Supreme Court.. I was reinstated, but new boss
wouldn't give me any pay.
I had to go to the Dept of Ed and beg. The Dept of Ed put
me on payroll but I did not have a class of my own.
I was tenured and skilled at teaching Math to a different
demographic. That group was pulled out of the school by
local parents and this new group commuted from a different
38

38

area. My new boss, gave me a bad rating, even though I
never received an end of year "U", was nasty to me with
another female, building AP about simple questions of why
this and why that about my lesson plan for the Regents
English classes I had to teach. It was the older than 40
teachers being harassed, and, never supported us with
classroom issues until it was too late. By that time, kids were
throwing things at us, screaming, bringing drugs, sexually
abusing girls in the locker room, bringing weapons, and
fighting. They kept all these freshmen teens separate in the
separate upstairs level of the school and they were strictly
prohibited to interact with the older students. They could
not even eat lunch with them. A 14 or 15 year old teenager
tried to blind me with a type two category weapon he got
passed the metal detector. She, the team teacher, had been
absent on Fridays and left me to take the head role of
teaching this subject I did not know and to this type of
climate of kids of a different setting I was never trained to
do. She cursed at the class and told me to curse at them to
discipline, and, because security would not always come. She
locked my coat, bag, keys out of our joined locker that I had
before she got the job that year. She was a new, ATR. 39

39

I suffered workplace Harassment by a school that had a
huge Administrator turnover rate. I had six principals and
five assistant principals in the nine and a half years I
worked at that school. I had never seen a fitness doctor
before working at the Department of Education. I was
abused to the point I could not sleep, nor eat, lost a lot of
weight, a few times gaining a lot of weight in a short
amount of time. My boss made fun of me, and, went after
me if I merely voiced my opinion, asked for services for
kids, asked for help managing unruly kids, having
classrooms closer together during the day, etc.
If the NYC Department of Education has no control
over a school/does to harm and fire teachers,
nor are they effective in upping the school report card, nor
can they keep the schools safe, then why is the NYC
Department of Education still in existence?
Another fact I was told I was "set up" by being forced
to teach regents English that I was not trained to do. They
were trying to unsatisfactorily ("u") rate only and all the
older than 40 teachers, as well, and forced only the older
40

40

ones and me to reapply with a resume and teaching
materials/plans to an unknown committee to apply for our
actual jobs. These were jobs we had been working in for
decade(s). I even tried to go back to work, had no poor
attendance and no personal marital issues, but did not get
paid for months. At first, I had to substitute classes with no
program. I had the retention rights as being a senior
teacher, but, was treated like an ATR. Many hated me
only one or two praised me for complaining years ago. I
suffered landlord issues and that lead to several eviction
notices. I lost contact with my family on my mother's side,
as well, and my father. I never had children of my own
that I always wanted to have.
"Lack of sufficient evidence to support a negative
verdict is another type of legal error that is grounds for
appeal." Regarding my SOL, I had an EEOC RTS 2013,
2014, 2015, 2016 that was oversight there in my recent
rehearing petition that the date was scribbled over as being
2014 under a marking of "2015". If, indeed, it was after
180 days of my going to the EEOC at the end of June 2013,
then I would still be in my SOL because I filed an article 78
41

41

for this same abuse at work in Supreme Court in Kings
County in June of 2013 that was dismissed. The
defendants never showed for court first few times I had my
process server serve them.
Two times the US Marshalls served them in the higher
Court (Fed Ct.) and they would not respond to the court, as
well. I never got a fair hearing and no just cause of the
law.
Mr. Omahoney, the principal harassed me at
meetings, whereas he did not harass the younger than 40.
I filed in 2012 the same article 78 case, so that was before I
was even fired in June of 2013 proving I could not endure
being treated unfairly, harassed, hurt, and being singled
out at work, that I utilized this administrative level as best
I could, too. Since the second filing was before my RTS
decision of June 2013, it means I went to the EEOC timely.
. I feel the defense is wrong. I had a FEMLA paper from the
UFT and my boss still abused and fired me. Of the five
principals that I worked for of the 10 years at this
particular school, most or all of them had, Teri Amass, the
payroll secretary harass me. She was very abusive about
my days out and days in the
42

42

bank, and other issues. In the court of appeals, the
appellee's respondent did not speak when I stated my
argument and that I had filed on time. You can hear her in
my tape recording I filed in federal court the day I was
fired while she was abusing me. If the attorney fails to
object and state a reason for the objection, the attorney has
implicitly waived the error. Since the attorney waives the
error, the trial court does not have an opportunity to fix it,
and the appellate court will generally refuse to consider the
potential error unless it is particularly egregious." In my
case, refusing to argue about an error, like multiple, filed
EEOC Right To Sue letters that were not transferred to the
court of appeals and it was a claim about sexual abuse and
physical and emotional harassment, along with fraud about
grade tampering and firing when I am a victim of domestic
abuse by an illegal immigrant/spouse, and, later, firing me
at that same place of work by a new boss for filling a
worker's comp. claim that a child hurt me with an illegal
weapon is egregious or behaviors that are staggeringly bad,
or obviously wrong, "beyond any reasonable degree". (Found
online-legal Dictionary EGREGIOUS July 18, 2016 43

43

by: Content Team).
To amend title VII of the Civil Rights Act of 1964 and
the Age Discrimination in Employment Act of 1967, and to
modify the operation of the Americans with Disabilities Act
of 1990 and the Rehabilitation Act of 1973, to clarify that a
discriminatory compensation decision or other practice that
is unlawful, etc

(NOTE: Jan. 29, 2009 - [S. 181] Be it

enacted by the Senate and House of Representatives, etc, NOTE:
Lilly Ledbetter Fair Pay Act of 2009. 42 USC 2000a) Congress
finds the following: (1) The Supreme Court in Ledbetter v.
Goodyear Tire & Rubber Co., 550 U.S. 618 (2007),decision
undermine those statutory protections by unduly, etc, (3)
With regard to any charge of discrimination under any law,
nothing in this Act is intended to preclude or limit an
aggrieved person's of an unlawful employment practice that
has occurred outside the time for filing charge of
discrimination
Local Rule 40(a). Filing of Petition.
ii. A chanEe in law occurred after the case was submitted,
was overlooked by panel Time off for domestic violence and
stalking victims. In Nevada, employers will be required to 44

44

provide time off (either paid or unpaid) to domestic violence
victims and in New York City, paid sick leave will be
expanded to include time off for victims of sexual offenses and
stalking starting. In May, Nevada employees can use the
leave to do things like get counseling, go to court or go to the
doctor, etc. regarding maternity leave, etc., etc. This should
be in all states of America, not just Nevada and New
York..
REASONS TO BE GRANTED THE PETITION;
The federal question I raised to give employees off
time with or without pay in America if they are being stalked
or on FEMLA is important to me because there are still so
many other states in America, now, without these
Protections. Was there was an oversight that an employee
reported a type of VAWA (Violence Against Women) case to
Federal Court and to The Court of Appeals, Second Circuit,
and which Court must order restitution pay?
I was assaulted and sexually ( in my mid 20's boss,
Mr. Marc Sklar) /verbally and physically abused on the job
until I had gotten so frightful. My boss mentally tortured
me on a weekly and daily basis that when I showed
concerns for the needs of and rights of my students I was
45

45

fearful I'd face another beating by her, get more bruises on
my body, and lose my salary. I faced harassment and
physical abuse I filed my EEOC letters of Right to Sue
timely and they're filed for proof and in this appendix of
this petition. Federal court justices with the right laws
could have jurisdiction to charge and/or try employers for
criminal charges instead of civil charges who assault staff
and employees physically, mentally and sexually, instead
of making it "harassment" or " aggravated assault" which
are civil in nature. This could make the boss think twice
about his/her actions to a subordinate. One of my bosses
needs to do time in prison. He worked with teen aged kids
and young adults in a sleep away camp of which he had no
business being there. He is inappropriate around women,
rubbed up against me in his office when there was plenty of
room to pass, and harassed me in front of my class saying
sexual things to me. Kids should not be allowed to threaten
teachers' jobs by writing them up and should not be able to
hit and harm teachers or other kids with weapons they get
into the school. Stronger laws could foster more professional management at the school workplace and

46

46

improve a hostile workplace. Kids witness abuse and
danger bosses cause teachers, thus, leads to other violence
they learn, thus some exhibit aggression and violence
towards the rest of the school.
CONCLUSION
I felt I was fired for my domestic abuse, for my restraining
order, and for my divorce proceedings and when I refused to
pass failing kids, for when I reported my boss to SCI, and
Human Rights, and other reasons beyond my control, such
as for being female and being Jewish. I have proof of this
since I went to SCI and Human Rights before being fired.
I feel this way because I called SCI and Human
Rights and went there in person right before I got my letter
I was being removed from my duties and because the letter
from SCI saying they will investigate is dated before the
letter I was asked to leave. My bosses were not doctors so
they could not deem me unfit. Dr. Ann Garner of the DOE
did not even know me and only talked to me for 15 minutes
so she could not make a good judgement calling me unfit.
She did it as retaliation to get me fired.

47

47

I had never had an official letter of being terminated, and
could not obtain my arbitration decision because the union
persons would not give it to me, nor would the doctor or the
Dept. of Ed., so filed a case in Supreme and Federal court,
and with the EEOC. I continued to sue and take my case to
the Appeals Courthouse (Second Circuit) because I felt
continual discrimination when a new principal at the same
school I was reinstated back into discriminated against me,
as well. My school assistant principal, Mario Ford kept
sending me letters of resignation, but I would not sign them,
especially since I reported for duty several times. Also, I
received no backpay, even though my attorney won my job
back. Which court enforces policy with unions regarding
protecting teachers from violent bosses who assault them
and mentally abuse them on the job and, to, also, provide
amended constitutional in granting them free legal
representation outside of NYSUT -type agencies who fail to
represent them in employment cases? I was discriminated
this second time around for being over 40 years of age (by
O'Mahoney) and for retaliating against past bosses. This
48

48

new boss, passed the baton from the former principal by
making me teach a subject I was not licensed for to groups
of children I was not trained to teach. He, sided with my
former boss, Morrissey, who was not at her job anymore that
week I went to Human Rights.
I had refuted a non, end-of-year "S" rating when I was
back after my 2/12 year unpaid forced leave (I had never had
an unsatisfactory rating, ever, in my end of year report my
entire career) and a UFT rep from the Borough Office was
at that hearing at the DOE location. Over the phone she
was supported by O'Mahoney, who was on the phone, too,
both answering questions by the DOE hearing officer. I did
not understand that O'Mahoney defended Morrissey since
they never worked together and he did not know me long so
why would he care about what happened with my forced
leave years ago? Grace Lewis, the team teacher was highly
abusive to me and would harass me in front of our class. My
doctor told me I was fit to work several times and supported
the idea of suing for abuse and discrimination, especially
since it's a new boss and I had not had any major absences,
49

49

nor, was I going through a family violence issue, nor was I
going through a divorce, anymore, so it could only be a
personal vengeance against me for complaining and because of my age. A former boss, in IS 303, from a former job
said sexual things to me when I was two decades younger
than he, would dangle cookies in my face, and brushed
against me in a spacious office a few times, a female aid or
para I believe she was from John Jay HS who stalked me, a
different boss from Canarsie HS who put me before me and
made me work without pay, another boss from FDR HS who
stalked me and abused me (by putting me into subjects to
teach I was not licensed to do and in so many locations I lost
30 pounds in one month) I knew I faced ongoing retaliation.
An interact-um boss at Sheepshead Bay HS would yell at
me, shook me and attacked me and more mental abuse,
daily. The next boss gave promotions to male teachers and
one specific female, named Raquel Berry who was her best
friend's (a para, who worked there) daughter and did not
have a license to even be teaching in high school.
Ultimately, mentally tortured me so I went to Federal Court
at the same time I was filed in Supreme Court for related
50

50

issues. I never had a trial and my constitutional rights were
taken from me as well as breaking the contract that I am in
a protected class of. I was fired without just cause.
Now, at Court of Appeals, Second Circuit, I am
writing this petition and suing for $500,000,000.00 (five
hundred million US tax free dollars) I have lost the good
relationship I once had wtih my family and colleagues, and
many due to the way I was discriminated against.
The Union failed me and NYSUT would not
represent me against my bosses in court as well as the fact
they labeled me a "whistleblower" in a letter to me. I was
just trying not to get beaten up again and emotionally harassed by my boss. I did not purposefully intend to get
anyone in trouble about fraud. This is immigration related
and domestic violence related, so I really hope laws can be
specific enough to address the needs of a victim, especially
a female victim, such as myself. I have reason to suspect
my boss vandalized my property where I lived. And my
classroom, taunted me for being Jewish and, also, on a cultural and practical level of how my family is, made fun of
how I dress, what I weighed, whom I dated, etc. I was 51

51

not protected as a whistleblower. The facts are that after I
complained about most of the recent bosses, they were
fired, and many years later, my ex-husband was finally
deported, that there is a class action age discrimination
case my colleagues from the math department of years ago
I worked with at Sheepshead Bay High School under the
name of Herman Lebowitz against Department of
Education who
are suing the same boss who fired them for age
discrimination when we worked together. This principal at
that time had his "Principal's license" revoked and went to
teach math in a junior high, I heard. I heard he was not
licensed to work in a High School.
Closing
Lastly, reversible errors resulting from the violation of an
individual's "substantial right(s)" must be considered on an
individual basis. Reversible errors include, but are not
limited to: excluding evidence which a party was entitled to
have admitted. (This refers to My information about my
RTS letter dated Feb. 27, 2013 and 2016.)

52

52

An employee in any workplace environment (in this
case, a school setting) who acts to help keep others safe by
trying to take away a weapon, seeks medical
attention, and files for immediate workers comp to get
money for medical damages done to his/herself, should not
be fired because this "carpeting" of such a complaint could
encourage more workplace violence within that structure (in
this case our schools). There was another issue of the two
court houses not being on the same page as the Federal
Court Justices said I failed to state a claim to prove there
was any discrimination. They, also, said that and posting a
photo of a person who hurt me is the reason my case is
prejudiced and meritless, whereas the Circuit Judges mostly
mentioned a timely filing leading to a meritless case.
I feel a remedy to be granted to me for the loss of my
career loss of health and safety, that permanently disabled
me with fear and panic in the sum of $500,000,000.00 (five
hundred million) American dollars without tax charged.
The student with the laser who hurt me had his weapon
taken away and was allowed back to class, and the class
53

53

knew I was fired, thus, showing kids they have the power to
get weapons into class. They can hurt others, getting rid of
teachers as they threaten to do on the first _day- of school,
with no support from the employers. The dean would not
even search my class's book bag's the next day at the metal
detectors. With special education, there needs to be stricter
punishments for having a type two category weapon, such as
a laser that was pointed at my eye. Students have no right
to hurt anyone, much less get a Type II category weapon
such as a laser pointer passed the metal detectors

a

weapon used to blind on pilots to have them crash a plane.
There was a gun in my school many years prior I read in a
blog that, more recently, my school was rated 6th most
dangerous in the city. Without amended laws in place, the
teachers and the innocent children of the classroom are
targets. My employer acted in breach of contract and was
actually breaching one of the fundamental aspects of the
employer/ employee relationship - the right to work which
is in this law, SECTION 41-7-20.
FEMLA needs laws amended for every state so female
54

54

County Supreme court, missing days from work for a
contested divorce by an immigrant/spouse she had an order
of protection against. It is unfair that same judge and the
lawyer I retained did not give me an immediate annulment
from this immigrant and let me work. For these foregoing
reasons the court sho cl reconsider.

Lisa Gindi Pro Se Petitioner/Movant
Dated February 20, 2020
75-25 153 Street
Flushing, New York 11367
57

57

